Audit of SEC’s Controls over Support
Service, Expert and Consulting Service
Contracts




                                     March 29, 2013
                                     Report No. 513


           REDACTED PUBLIC VERSION
                                            UNITED STATES
                             SECURITIES AND EXCHANGE COMMISSION
                                       WASHINGTON, D.C.    20549


    OFFICE OF
INSPECTOR GENERAl..




                                      MEMORANDUM
                                            March 29, 2013

         To:          Vance C,athell, Director, Office of Acquisitions

         From:        Carl   ~~t~~al, Office of Inspector General
         Subject:     Audit of SEC's Controls over Support Service, Expert and Consulting
                      Service Contracts, Report No. 513

         This memorandum transmits the U.S. Securities and Exchange Commission Office
         (SEC) of Inspector General's (OIG) final report detailing the results on the Audit of
         SEC's Controls over Support Service, Expert and Consulting Service Contracts.
         This audit was conducted as part of our continuous effort to assess management of
         the Commission's programs and operations and as a part of our annual audit plan.

         The final report contains seven recommendations which if fully implemented should
         strengthen the Office of Acquisition's (OA) controls over support service, expert and
         consulting service contracts. OA concurred with all the recommendations. Your
         written response to the draft report is included in Appendix V.

         Within the next 45 days, please provide the OIG with a written corrective action plan
         that is designed to address the recommendations. The corrective action plan
         should include information such as the responsible official/point of contact,
         timeframes for completing required actions, and milestones identifying how you will
         address the recommendations.




                                    REDACTED PUBLIC VERSION 

Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation you and your staff
extended to our office.

Attachment

cc:	   Elisse B. Walter, Chairman
       Erica Y. Williams, Deputy Chief of Staff, Office of the Chairman
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel Gallagher, Commissioner
       Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
       Judith Blake, Branch Chief, Business Management Office, Office of
         Acquisitions




SEC’s Controls over Support Service, Expert and Consulting Service Contract   March 29, 2013
Report No. 513
                                            Page ii

                               REDACTED PUBLIC VERSION
Audit of SEC’s Controls over Support Service,
Expert and Consulting Service Contracts

                                 Executive Summary
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG) contracted with Castro & Company, LLC (Castro & Co) to
conduct an audit of the SEC’s support services, expert and consulting service
contracts and identify potential areas for improvement.

The SEC’s mission is to protect investors; maintain fair, orderly, and efficient
markets; and facilitate capital formation. The SEC has approximately 3,500
employees and 1,540 contractors the SEC uses to aid in completing its mission.
Over the years the Commission has issued a number of support services, expert
and consulting service contracts. The SEC’s use of contractors and the
administration of contracts are governed by the Federal Acquisition Regulation
(FAR). The 48 Code of Federal Regulation, Chapter 1, FAR provides uniform
policies and procedures for acquisitions that executive agencies such as the SEC,
are to follow.

The Office of Acquisitions (OA) executes contracts for SEC offices and divisions’
procurement needs, maintains contract administration and oversees contracting
officer’s representative (COR) training and certification, the government purchase
card program, and acquisition policy. OA performs best-value contracting to assist
its customers in accomplishing the SEC's mission. SEC’s acquisition workforce
(contracting personnel) includes contracting officers (CO), contract specialists,
CORs, and program managers.

At the SEC, CORs and program managers are responsible for ensuring sufficient
direction is provided to contractor personnel, contract terms are met and the
government’s interests are protected, without assuming supervision and control
over contractor personnel’s day-to-day activities.

The audit focused on the provisions of FAR 37.104, 1 which pertains to Personal
Services Contracts (PSC) and FAR 7.5, 2 which describes Inherently Governmental
Functions (IGF). The government is normally required to obtain its employees by
direct hire under competitive appointment or other procedures required by civil
1
  Federal Acquisition Regulation, Subpart 37.1 – Services Contract-General, Clause 37.104 – Personal Services

Contracts.

2
  Federal Acquisition Regulation, Subpart 7.5 – Inherently Governmental Functions, Clause 7.503 – Policy.

SEC’s Controls over Support Service, Expert and Consulting Service Contract                  March 29, 2013
Report No. 513
                                                  Page iii

                                   REDACTED PUBLIC VERSION
service laws. Obtaining personal services by contract, rather than by direct hire
circumvents those laws, unless Congress has specifically authorized acquisition of
the services by contract. The FAR characterizes a PSC as a contract where an
employer-employee relationship is created between the government and contractor
personnel. The employer-employee relationship may be created by the contract
terms or the manner in which the contract is administered (e.g., by subjecting
contractor personnel to relatively continuous supervision and control of a
government officer or employee).

The FAR 37.104(d) has identified six descriptive elements that, along with other
definitional and descriptive sections of FAR part 37, should be considered when
assessing whether a contract is personal in nature. 3

Services that are inherently governmental in nature should not be acquired. For
example, contracting for policy decisions is not allowable because it is an
inherently governmental function. However, support services to analyze policy and
provide recommendations are allowable. Also, contractors should not be used to
prepare testimony to Congress or to lobby Congress. Further, caution should be
exercised in allowing contractors to accept products or activities on behalf of the
government because these actions are normally considered to be inherently
governmental functions. 4

Objectives. The overall objective of the audit was to determine whether OA, when
awarding support services, expert and consulting service contracts, complied with
governing laws and regulations regarding PSCs and IGFs. Specific audit
objectives included:

      •	 Determine if OA has developed appropriate controls and has written

         policy that prevents contractors from performing personal services

         and inherently governmental functions.

      •	 Identify the procedures OA has established and uses to monitor and 

         carryout the terms of these contracts in accordance with governing

         federal laws, regulations and its internal policy.

      •	 Assess whether OA developed controls to ensure the SEC is

         properly charged for the services that are rendered under the terms

         of these contracts.

      •	 Identify best practices and possible cost savings or funds put to 

         better use, and provide recommendations to improve SEC’s

         contracting practices.



3
    See Appendix II.
4
    See FAR Subpart 7.503.
SEC’s Controls over Support Service, Expert and Consulting Service Contract   March 29, 2013
Report No. 513
                                            Page iv

                               REDACTED PUBLIC VERSION
Where appropriate, Castro & Co also identified areas for improvement.

Results. Prior to November 15, 2012, OA did not have any written policy related to
the management and administration of service contracts. Further, OA had not
adopted any controls at the time that would prevent contracting personnel or SEC
staff from forming employer-employee relationships and entering into PSCs. 5 We
identified a number of control deficiencies concerning the SEC’s controls over
support service and consulting contracts. Specifically, through analysis and
interviews we determined that three support service and consulting contracts/task
orders may have resulted in possible employer-employee relationships due to SEC
personnel’s continuous supervision of the contractors. Also, we found three
awarded service contracts included language that aligns with PSC characteristics.

In addition, we identified three service contracts/task orders that contained
language that could indicate the performance of IGFs by contractors. This language
should not have been included in the contracts. Because OA did not provide
adequate oversight of these contracts it could have resulted in contractors
performing IGFs. We also determined that OA did not take adequate measures in
developing contract language for specific contracts to describe the contractors’ job
duties and responsibilities.

OA’s newly issued guidance and operating procedures are comprehensive, but
need to be further strengthened to better ensure SEC personnel are trained and are
given current guidance regarding their responsibilities to administer and manage
contractors and are cognizant of FAR violations pertaining to employer-employee
relationships, PSCs and contractors conducting IGFs.

Also, we found OA has established controls to ensure that the SEC is appropriately
charged for services received. Based on our discussions with OA personnel and
analysis of invoices tested, the SEC controls over contractor invoicing appears
reasonable.

Finally, we performed benchmarking with other federal agencies to identify best
practices that could to improve SEC contracting practices. Recommendations on
how to improve SEC contracting practices are included below.

Summary of Recommendations. Based on the results of our audit, we
recommended OA request OGC review the contracts identified in this audit for
compliance with the FAR provisions on PSCs and IGFs and take necessary
corrective actions for the contracts that remain open. We also recommended OA
review support services contracts to ensure the contracts are designed and written

5
    See Appendix III for FAR 37.104(d) six elements.
SEC’s Controls over Support Service, Expert and Consulting Service Contract   March 29, 2013
Report No. 513
                                                       Page v

                                     REDACTED PUBLIC VERSION
to prevent PSCs and contractors from performing IGFs. Finally, we recommended
OA implement its recently published administrative regulation and operating
procedures on service contracts and provide training to contracting personnel and
other program personnel who work with contractors on service contracts.

Management’s Response to the Report’s Recommendations. OIG provided OA
with the formal draft report on March 21, 2013. OA concurred with all
recommendations in this report. OIG considers the report recommendations
resolved. However, the recommendations will remain open until documentation is
provided to OIG that supports each recommendation has been fully implemented.

OA’s response to each recommendation and OIG’s analysis of their responses are
presented after each recommendation in the body of this report.

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG redacted
(blacked out) potentially sensitive, proprietary information from the report.




SEC’s Controls over Support Service, Expert and Consulting Service Contract   March 29, 2013
Report No. 513
                                            Page vi

                               REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary..……………………………………………………………………...iii


Table of Contents ………………………………………………………………………...vii


Background and Objectives...............................................................................1

      Background ................................................................................................ 1

      Objectives ................................................................................................... 4


 Findings and Recommendations ................................................................... 5

      Finding 1: OA’s Oversight of Service Contracts and Language in Service

                 Contracts Needs Improvement ...................................................5

                   Recommendation 1 .............................................................. 10

                   Recommendation 2 ............................................................. 11

                   Recommendation 3 .............................................................. 11


           Finding 2: OA Awarded Service Contracts That Allowed Contractors to

                      Perform Inherently Governmental Functions ............................12

                        Recommendation 4 .............................................................. 15

                        Recommendation 5 .............................................................. 16


     Finding 3: OA’s New Guidance Pertaining to the Managing and 

                Administering Service Contracts Should Be Improved in Some

                Areas ....................................................................................... 16

                   Recommendation 6 .............................................................. 21

                   Recommendation 7 .............................................................. 22

 Appendices
     Appendix I: Abbreviations. ..................................................................... 23

     Appendix II: Scope and Methodology...................................................... 24

     Appendix III: Criteria. ................................................................................ 28

     Appendix IV: List of Recommendations.................................................... 31

     Appendix V: Management Comments......................................................33


 Tables
      Table 1: Support Services and Consulting Service Contracts that May 

      Have Been Administered as Personal Service Contracts............................. 6

      Table 2: Contracts that Contained Language that Could Indicate the 

      Performance of IGFs by Contractors..........................................................13





SEC’s Controls over Support Service, Expert and Consulting Service Contract                         March 29, 2013

Report No. 513

                                                      Page vii


                                      REDACTED PUBLIC VERSION
                   Background and Objectives


 Background
The U.S. Securities and Exchange Commission (SEC or Commission) Office of
Inspector General (OIG) contracted with Castro & Company, LLC (Castro & Co) to
conduct an audit of the SEC’s support services, expert and consulting service
contracts and identify potential areas for improvement.

The SEC’s mission is to protect investors; maintain fair, orderly, and efficient
markets; and facilitate capital formation. The SEC has approximately 3,500
employees and 1,540 contractors that are used to aid in completing its mission.
Over the years the agency has issued a number of support services, expert and
consulting service contracts. The SEC’s use of contractors and the
administration of contracts are governed by the Federal Acquisition Regulation
(FAR). The 48 Code of Federal Regulation, Chapter 1, FAR provides uniform
policies and procedures for acquisitions that executive agencies such as the SEC
are to follow.

Office of Acquisitions

The Office of Acquisitions (OA) is led by a director and consists of five branches
that are overseen by branch chiefs. Overall, OA executes contracts for SEC
offices and divisions’ procurement needs, maintains contract administration, and
oversees contracting officer’s representative (COR) training and certification, the
government purchase card program, and acquisition policy. OA performs best-
value contracting to assist its customers in accomplishing the SEC's mission. OA’s
acquisition workforce includes contracting personnel such as contracting officers
(CO), contract specialists, CORs, and program managers.

The CO is the U.S. government's authorized agent for dealing with contractors and
has sole authority to solicit proposals, negotiate, award, administer, modify, or
terminate contracts and make related determinations and findings on behalf of the
U.S. government. The CO has the overall and primary responsibility for the
administration of contracts.

At the SEC, CORs, and program managers are responsible for ensuring that
sufficient direction is provided to contractor personnel, the contract terms are met
and the government’s interests are protected, without assuming supervision and
control over contractor personnel’s day-to-day activities.


SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 1
                              REDACTED PUBLIC VERSION
On November 15, 2012, OA issued SECR 10-24, Management and
Administration of Service Contracts (SECR 10-24). The SECR 10-24 is
comprehensive and provides direction to SEC staff regarding the avoidance of
employee-employer relationships, personal services, and inherently governmental
functions (IGF). Also, in November 2012, OA issued Operating Procedures (OP)
10-24 to accompany the SECR 10-24. OP 10-24 is comprised of in-depth
guidance and procedures SEC contracting personnel and employees should follow
regarding the administration and oversight of service contracts. OP 10-24 consists
of the following distinct areas:

   1.	 Service Contract Checklist.
   2.	 Desk Reference: Management and Administration of Service 

       Contracts.

   3.	 Training SECR, OP 10-24 and Checklist.
   4. Training slides, “SEC Employees: Rules for Working with 

       Contractors.”


Overview of Personal Services Contracts

The government is normally required to obtain its employees by direct hire under
competitive appointment or other procedures required by civil service laws.
Obtaining personal services by contract, rather than by direct hire circumvents
those laws, unless Congress has specifically authorized acquisition of the services
by contract. FAR 37.104 prohibit agencies from awarding personal services
contracts (PSC) unless specifically authorized by statute. Hence, PSCs generally
are not allowable.

The FAR characterizes a PSC as a contract where an employer-employee
relationship is created between the government and contractor personnel. The
employer-employee relationship may be created by the contract terms or the
manner in which the contract is administered (e.g., by subjecting contractor
personnel to relatively continuous supervision and control of a government officer
or employee. An inappropriate employer-employee relationship may develop
through the actions of government personnel such as COs, contract specialists,
CORs, or program managers. In addition, government personnel in supervisory
roles at the SEC, such as branch chiefs or team leads who are not officially
appointed as the COR or program manager, may exert inappropriate control over
contractor personnel through their day-to-day interactions with the contractors.

When contractor personnel are continuously supervised by a government
employee, as though the contractor employee is a civil servant employee, the
contract can have characteristics of a personal services contract. An example of
how a non-personal services contract might improperly expand into a personal
services area includes when contractor personnel fall under the direct supervision
and control of agency management. Such control is evidenced by the government
SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 2
                              REDACTED PUBLIC VERSION
employee performing tasks such as specifying the contractor personnel’s duties,
approving hours of work or leave, providing performance appraisals, and issuing
disciplinary action against the contractor employee. Unless specifically authorized
by legislation, agencies cannot enter into such contracts.

Hence, while the government is responsible for oversight of its contracts,
government employees must avoid direct supervision of contractor employees to
fill the government’s contract requirements. The FAR 37.104(d) has identified six
descriptive elements that, along with the other definitional and descriptive sections
of FAR part 37, should be considered when assessing whether a contract is
personal in nature. 6

Overview of Inherently Governmental Functions

FAR Subpart 37.203 lists five prohibited uses for advisory and assistance services
contracts—

      (1) to perform work of a policy, decision-making, or managerial nature

          which is the direct responsibility of agency officials [see discussion 

          of inherently governmental functions below];

      (2) to bypass or undermine personnel ceilings, pay limitations, or

          competitive employment procedures;

      (3) to contract with former government employees on a preferential

          basis;

      (4) to aid in influencing or enacting legislation; or
      (5) to obtain professional or technical advice which is readily available 

          within the agency or another Federal agency.


Services that are inherently governmental in nature should not be acquired. For
example, contracting for policy decisions is not allowable because it is an
inherently governmental function. However, support services to analyze policy
and provide recommendations are allowable. Also, contractors should not be
used to prepare testimony to Congress or to lobby Congress. Further, caution
should be exercised in allowing contractors to accept products or activities on
behalf of the government because these actions are normally considered to be
inherently governmental functions. 7




6
    See Appendix II.
7
    See FAR Subpart 7.503.
SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 3
                              REDACTED PUBLIC VERSION
OA’s Support Services, Expert Witness, and Consulting Service Contracts
Invoicing

Time and materials contracts provide for acquiring supplies/services on the basis
of direct labor hours at specified fixed hourly rates and materials at cost, including
material handling costs if appropriate. Labor-hour contracts are a variation of time
and materials contracts and they exclude materials that are supplied by the
contractor. Time and materials and labor hour contracts are used when it is not
possible to estimate accurately the extent or duration of the work or to anticipate
costs with any degree of confidence. OA’s support services, expert witness, and
consulting service contracts were primarily awarded as time and material/labor
hour contracts for which the government paid the contractor an hourly fee for the
services provided.

OA has established controls to ensure the SEC is appropriately charged for the
services it receives from support services, expert witness, and consulting service
contracts. Before contractor invoices are paid CORs review the invoices and
examine timesheets and supporting documentation to determine whether the
contractor’s charges are appropriate and pertinent information corresponds with
the contract’s terms.

Objectives
Objectives. The overall objective of the audit was to determine whether OA,
when awarding support services, expert and consulting service contracts,
complied with governing laws and regulations regarding PSCs and IGFs. Further
audit objectives were to:

   •	 Determine if OA has developed appropriate controls and has

      written policy that prevents contractors from performing personal

      services and inherently governmental functions.

   •	 Identify the procedures OA has established and uses to monitor

      and carryout the terms of these contracts in accordance with 

      governing federal laws, regulations and its internal policy.

   •	 Assess whether OA developed proper controls to ensure the SEC

      is properly charged for the services that are rendered under the 

      terms of these contracts.

   •	 Identify best practices and possible cost savings or funds put to 

      better use and provide recommendations to improve SEC

      contracting practices.


Where appropriate, Castro & Co also identified areas for improvement.


SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 4
                              REDACTED PUBLIC VERSION
                   Findings and Recommendations


Finding 1: OA’s Oversight of Service Contracts
and Language in Service Contracts Needs
Improvement
           SEC’s oversight of three support services and consulting

           service contracts/task orders may have resulted in possible 

           employer-employee relationships, due to SEC personnel’s

           continuous supervision of the contractors. Also, our review

           of three awarded service contracts found they included

           language that aligns with PSC characteristics.


Prior to November 15, 2012, OA did not have any written policy related to the
management and administration of service contracts. Further, OA had not adopted
any controls that would prevent contracting personnel or SEC staff from forming
employer-employee relationships and entering into PSCs. 8

We obtained a listing of support services, expert witness, and consulting service
contracts from OA and tested a sample of 134 contracts by applying the six
elements identified in FAR 37.104(d) to assess whether the contract was personal
in nature. These contracts were primarily awarded as time and material/labor hour
contracts and the government paid the contractor an hourly fee for the services
provided.

Through analysis and interviews we determined that the service contracts identified
in Table 1 may have been administered as PSCs. Specifically, we determined that
the                      and        contracts were positive for all six elements in
FAR 37.104(d) and the        contract was positive to 5 of the 6 elements. We
determined the second element, which asks “Are the principal tools and equipment
furnished by the government?” was not a significant factor for the
          and       contracts. For both contracts, the furnishing of such equipment
as telephones and computers was also not a material factor. Also, our testing
found no issues with expert witness contracts.




8
    See Appendix III for FAR 37.104(d) six elements.
SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                                       Page 5
                                     REDACTED PUBLIC VERSION
   Table 1: Support Services and Consulting Service Contracts that
   May Have Been Administered as Personal Service Contracts
       Vendor Name              Service                                            Contract
      (Contract/Task          Description                Contract Status            Value
      Order Number)
                                                 Task order has not been fully
                                                 closed. Period of
                                                 performance (POP) expired
    (SECHQ             -   Professional          July 2012. Position was
       )                   Services              abolished in June 2012.         $106,797
                           IT Forensic and       Contract is open. Contract
    (SECHQ             )   Litigation Support    POP is July 2012 - July 2017    $3,745,140
                                                 TO cancelled via mod dated
                                                 11/19/12. New TO 0100,
    (SECHQ                                       POP expires August 30,
         )                 HR Support            2014.                           $100,000
   Source: Castro & Company Generated

                                 Contract. We interviewed the CO, COR, and sole
contractor for this contract. The COR informed us she provided daily supervision to
the sole contractor on this contract. This supervision included determining daily
work assignments that were to be completed. The contractor confirmed this
information and informed us that SEC staff had also interviewed her to determine
her suitability for the position. The period of performance for this contract expired in
July 2012. At that time, the contractor was hired as a SEC employee and currently
performs many of the same job functions she did as a contractor.

Based on our analysis and interviews conducted, we determined this contract was
positive for all six elements identified in FAR 37.104(d) that are used to assess if an
employer-employee relationship has been created. Specifically, our assessment of
the six elements found the following:

   •	 The contractor primarily conducted its work on site at the SEC.
   •	 Principal tools and equipment (such as computers and telephones)

      were furnished by the government, although this was not material.

   •	 The contractor’s services were applied directly as an integral effort 

      of the Operations Center facilities branch, which served as the 

      contractor’s main point of contact.

   •	 Comparable services and meeting comparable needs were 

      performed using SEC personnel because the contractor later was

      hired as an SEC employee and now performs the same job duties

      she did as a contractor.

   •	 The need for the service provided could reasonably have been 

      expected to last beyond one year.

   •	 Interviews with the contractor and COR indicated SEC personnel

      provided continuous supervision of the contractor.

SEC’s Controls over Support Service, Expert and Consulting Service Contracts         March 29, 2013
Report No. 513
                                                Page 6
                                REDACTED PUBLIC VERSION
We determined this contract/task order may have been administered as a PSC
primarily due to the COR’s relatively continuous supervision of the contractor.

             Contract. For this contract we interviewed the CO, COR, the Division of
Enforcement’s (Enforcement) IT forensic branch chief, SEC team leads,
project managers and numerous            staff. The Enforcement IT forensic branch
chief, who was not the COR, told us he interviewed contractor personnel prior to
      , Inc. hiring them. The branch chief asserted he made the final determination
to hire contractor staff.

We also found an instance where a contractor staff with no previous relationship to
      , was referred to       to be hired based on an interview this person had with
the branch chief. We were also told that SEC employees directly supervised
contractor staff’s daily work and contractors worked side-by-side with Enforcement’s
IT forensic specialists, who conducted the same job functions and were considered
interchangeable with SEC employees by managers in the IT forensic branch. Thus,
we determined that SEC staff provided relatively continuous supervision of
contractors and an employee-employer relation was present.

Based on our analysis and interviews conducted, we determined this contract was
positive for five of the six elements identified in FAR 37.104(d) that are used to
assess if a contract is personal in nature. Specifically, our assessment of the six
elements found the following:

   •	 The contractor’s principal tools and equipment (e.g., 90 work

      stations and a mix of Dell OptiPlex computer models) were 

      furnished by the SEC.

   •	 The services provided by the contractor were applied directly to the 

      integral effort of the Enforcement IT forensics branch.

   •	 Comparable services and meeting comparable needs were 

      performed using civil services personnel because 
       contractors
      and SEC personnel worked side-by-side performing the same
      functions.
   •	 The need for the service provided could reasonably have been 

      expected to last beyond one year, because the contract’s period of

      performance was from July 2012 to July 2017.

   •	 Interviews conducted with SEC personnel and           contractors
      indicated the services the contractor provided were subject to
      continuous supervision of SEC personnel.

As a result of SEC staffs’ direct supervision and contractors performing
interchangeable job duties with federal employees, we determined this contract may
have been administered as a PSC.


SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 7
                               REDACTED PUBLIC VERSION
      Contract. For this contract we interviewed the CO, COR, the Office of
Human Resources (OHR) assistant director, labor relations branch chief, SEC
program leads and        contractor personnel.       contractors informed us they
were supervised on a daily basis by SEC staff. In addition, we identified a
contractor whose leave was approved by SEC staff.

Based on our analysis and interviews conducted we determined this contract was
positive for all six elements identified in FAR 37.104(d) that are used to assess if an
employer-employee relationship has been created. Specifically, our assessment of
the six elements found the following:

   •	 The contractor primarily conducted its work on site at the SEC.
   •	 Principal tools and equipment (such as computers and telephones)

      were furnished by the government, although this was not material.

   •	 Services were applied directly to the integral effort of OHR.
   •	 Comparable services and meeting comparable needs were 

      performed using civil services personnel. The contract stated that 

      the purpose of the contract was to provide “…programmatic support

      to OHR in response to workload surges and staff shortages, to 

      ensure consistent, quality deliver of Human Resources products

      and services to SEC customers and various stakeholders.”

   •	 The need for the service provided could reasonably have been 

      expected to last beyond one year because a contract modification 

      was issued in November 2012 and the period of performance 

      expires in August 2014.

   •	 Interviews with numerous SEC personnel and              contractors
      indicated the services the contractor provided were subject to
      continuous supervision of SEC personnel.

We determined this contract may have been administered as a PSC primarily due
to SEC staff’s continuous supervision of contractor personnel.

Language in Awarded Service Contracts
Our audit revealed seven contracts/task orders for service contracts that contained
language we determined was indicative of a PSC. We did not find any
corroborating evidence related to these contracts indicating noncompliance with
FAR 37.104. Our review of service contracts found the following contract language
we interpreted as indicating the contractors’ work was to be assigned and
monitored by SEC personnel.

       Assignments – The individual will work closely with team leads and
       divisions to receive assignments.


SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 8
                               REDACTED PUBLIC VERSION
       Monitoring – Government personnel must be on-site to oversee 

       contractor personnel.


Also, we found some service contracts did not have specific contractor deliverables.
This gave the perception the contractors’ work would be personal services in nature
and would be under SEC staff’s supervision. For example, certain contracts
contained the following clause in the contract’s deliverable section:

       Onsite contractors shall complete work assignments and tasks on
       time; ensure work products are thorough and accurate; and work
       and interact professionally and effectively with all levels of
       management and staff in completing assignments…The contractor
       shall provide the contracting officer with a monthly status report
       summarizing the level of effort expended under the contract by task
       order…

Other contracts had the following language:

       The SEC reserves the right to interview contractor personnel prior
       to placement of the individuals(s) under the contract.

Our interviews with contractor personnel, CORs, and program managers confirmed
instances where contractors received daily work assignments from SEC personnel
and contractors received continuous supervision from SEC personnel.

OA’s Management and Contract Administration Controls
Prior to November, 2012, OA had not developed procedures to ensure contracting
personnel reviewed service contracts prior to award and verified the contract did not
contain language that could be constituted as employer-employee relationship or
PSC.

Also, OA did not always ensure language was included in awarded service
contracts requiring the contractor designate a point of contact or project manager to
supervise contractor personnel. Additionally, some contracts also did not
adequately address contractor personnel’s work schedules, timesheet approval,
and leave requests. We believe having these items explicitly discussed in the
service contract safeguards the SEC against employer-employee relationships
being created.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                            Page 9
                               REDACTED PUBLIC VERSION
Conclusion
The SEC may have entered into employer-employee relationships and administered
three PSCs. We determined that OA’s oversight of service contracts and the
language in the contracts need improvement.

Prior to November 15, 2012, 9 OA did not have any written policy related to the COs,
contract specialists, CORs, and program managers characterized specifically as
“management and administration of service contracts.” Further, OA did not have
procedures in place to ensure contracting personnel overseeing service contracts
reviewed the contracts on an ongoing basis. Additionally, OA did not require
personnel such as CORs, and program managers to use measures such as post-
award checklists that could have aided in preventing service contracts from being
administered as PSCs. These deficiencies further happened because OA did not at
the time have any controls in place to prevent employer-employee relationships
from occurring, and they did not provide adequate training to contracting personnel
regarding the SEC’s relationships with contractors and other preventive measures
that could have been taken. Having policy and procedures and providing staff with
adequate training would have ensured that service contracts were not administered
as PSCs and did not include language that could be constituted as a PSC.

Lastly, FAR 37.104 requires agencies to be authorized by statute to enter into a
PSC. OA did not have this authorization for the
               contracts. OA not having policy and controls in place regarding
service contracts, prior to November 2012, put the Commission at risk for SEC
personnel to provide continuous supervision of its contractors and enter into PSCs.

       Recommendation 1:

       The Office of Acquisitions should coordinate with the Office of the General
       Counsel to determine if the                      , Contract No. SECHQ­
                      ;       Contract, No. SECHQ­            ; and        , Contract
       No. SECHQ                       were personal services contracts prohibited
       by Federal Acquisition Regulation (FAR) 37.104 and take any action needed
       to ensure compliance with the FAR’s provision for the contracts that remain
       open.

       Management Comments. OA concurred with this recommendation. See
       Appendix V for management’s full comments.




9
 OA issued SECR 10-24, Management and Administration of Service Contracts and Operating Procedures
(OP) 10-24 in November 15, 2012. See Finding 3 for further detail on the new policy.
SEC’s Controls over Support Service, Expert and Consulting Service Contracts        March 29, 2013
Report No. 513
                                            Page 10
                               REDACTED PUBLIC VERSION
       OIG Analysis. We are pleased OA concurred with this recommendation.
       OIG considers this recommendation resolved. However, the
       recommendation will remain open until documentation is provided to OIG
       that supports it has been fully implemented.

       Recommendation 2:

       The Office of Acquisitions should ensure contracting personnel such as
       contracting officers and contract specialists review service contracts prior to
       award and verify they do not contain language that could be construed as an
       employer-employee relationship or personal services contract.

       Management Comments. OA concurred with this recommendation. See
       Appendix V for management’s full comments.

       OIG Analysis. We are pleased OA concurred with this recommendation.
       OIG considers this recommendation resolved. However, the
       recommendation will remain open until documentation is provided to OIG
       that supports it has been fully implemented.

       Recommendation 3:

       The Office of Acquisitions should ensure service contracts have a designated
       contractor point of contact or project manager to oversee its personnel’s
       work assignments, work schedules, timecard approval, leave requests, and
       other administrative requirements.

       Management Comments. OA concurred with this recommendation. See
       Appendix V for management’s full comments.

       OIG Analysis. We are pleased OA concurred with this recommendation.
       OIG considers this recommendation resolved. However, the
       recommendation will remain open until documentation is provided to OIG
       that supports it has been fully implemented.

Finding 2: Three Service Contracts/Task Orders
Contained Language That Was Indicative of
Inherently Governmental Functions
       We identified three service contracts/task orders that 

       contained language that could indicate the performance of

       IGFs by contractors. This language should not have been 

       included in the contract.

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 11
                               REDACTED PUBLIC VERSION
Our review of 134 support services, expert and consulting service contracts found
that three contained language that could be construed as allowing contractors to
perform IGFs. Specifically, we determined that language in the
          , LLC contract for professional services,                    contract for
program management, and support services, and            contract for human
resource support allowed for the contractor’s performance of IGFs which is contrary
to FAR 7.503(c)(12)(v) and the Office of Federal Procurement Policy (OFPP) Letter
11-01. 10 OFPP provides executive departments and agencies guidance on
managing the performance of inherently governmental and critical functions. It
further provides examples and tests to help agencies identify inherently
governmental functions, such as explaining what agencies must do when work is
“closely associated” with inherently governmental functions.

In developing statements of work (SOW) we learned that COs and contract
specialists often re-use old SOWs to draft new SOWs. As a result, language in
many of the contracts we reviewed was exactly the same or were nearly the same.
The                         and                  contracts had similar contract
language we determined could be constituted as an IGF.

Table 2: Contracts that Contained Language that Could Indicate the
Performance of IGFs by Contractors
                           Contract/Task
     Vendor Name           Order Number               Contract Status            Service Description


                         SECHQ                  Contract is open. POP
                                                expires August 31, 2014        Professional Services
                                                Contract is open. POP
                                                expires December 31,
                                                2015. TO for contract a        Program
                                                specialist was terminated      Management/Support
                         SECHQ                  December 2012.                 Services
                                                TO cancelled via mod
                                                dated 11/19/12. New TO
                         SECHQ                  0100, POP expires August
                                                30, 2014                       HR Support
Source: Castro & Company Generated

                             Contract Language. We interviewed the CO and
COR for this contract, but were unable to conduct interviews with contractor
personnel who performed contract specialist functions because they were replaced
by another contractor. This service contract did not clearly define the transition
point between contractor functions and the functions that were reserved for the


10
  Office of Management and Budget (OMB) Publication of the Office of Federal Procurement Policy (OFPP)
Letter 11-01, Performance of Inherently Governmental and Critical Functions.
SEC’s Controls over Support Service, Expert and Consulting Service Contracts              March 29, 2013
Report No. 513
                                               Page 12
                                  REDACTED PUBLIC VERSION
government, and in some cases was poorly worded or unclear. This services
contract included the following language:

       Contract Specialist III: Individual shall have the ability to negotiate
       and serve as the point of contact on multiple requirements…
       Negotiates effective settlement solutions…administers complex,
       large dollar contracts and other types of contract documents as
       needed…Negotiating and managing complex sales, services,
       consulting, and licensing related contracts of significant importance
       and strategic value…Develop and issue complex solicitations,
       evaluate proposal, conduct negotiations, perform price/technical
       trade off analysis, award, and administer contracts through
       closeout.

We determined the contract language for the contract specialist III is specific to
inherently governmental functions and thus is inconsistent with FAR 7.503(c)
(12)(v), which identifies the administration of contracts as IGFs.

                     Contract Language. We interviewed the CO and COR for this
contract, but were unable to conduct interviews with contractor personnel because
OA terminated its Task Order (TO) with the vendor on December 7, 2012, prior to
us arranging to meet with the contractors. This TO included the language below:

       Contract Specialist I and II: Individual shall have the ability to 

       negotiate and serve as the point of contact on multiple 

       requirements…


       Contract Specialist III: Individual shall have the ability to negotiate
       and serve as the point of contact on multiple requirements…
       Negotiates effective settlement solutions…administers complex,
       large dollar contracts and other types of contract documents as
       needed… Negotiating and managing complex sales, services,
       consulting, and licensing related contracts of significant importance
       and strategic value… develop and issue complex solicitations,
       evaluate proposal, conduct negotiations, perform price/technical
       trade off analysis, award, and administer contracts through closeout.

Our review of the contract specialists I, II, and III job descriptions found the duties
and responsibilities included administering contracts and conducting negotiations to
determine contract requirements. We determined the contract language is specific
to inherently governmental functions and thus is not consistent with FAR
7.503(c)(12)(v) which identifies the administration of contracts as IGFs.



SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 13
                               REDACTED PUBLIC VERSION
      Contract Language. The language in this contract included the following:

       Employee and Labor Relation Specialist Support: Representing
       management and applies expert knowledge and skill in collective
       bargaining and/or negotiations...negotiating outside the collective
       bargaining process; overseeing arbitration and grievances...

We conducted interviews with the CO, COR, Office of Human Resources (OHR)
assistant director, labor relations branch chief, SEC program leads and
contractors. One contractor stated her responsibilities included drafting
documentation for OHR actions such as disciplinary action, leave restriction, and
the removal of SEC personnel. Another contractor, who was an industrial
psychologist, indicated her responsibilities included implementing the SEC’s
performance management system.

The COR and team leads for the         contract told us, as written, the job
description would be considered an IGF. However, they asserted that contract
personnel did not perform these duties, and they further believe the contract was
poorly worded.

Based on our analysis, we determined contractor personnel did not always perform
the specific work requirements detailed in the contract. Also, contractors should not
represent management as part of its collective bargaining negotiation process.
According to OFPP Letter 11-01 Section 5:

       “A function requiring the exercise of discretion shall be deemed
       inherently governmental if the exercise of that discretion commits
       the government to a course of action where two or more alternative
       courses of action exist and decision making is not already limited or
       guided by existing policies, procedures, directions, orders and other
       guidance…”

Conclusion
We determined language in the                                                    and
      contracts, as well as the SEC’s oversight of these contracts could indicate the
performance of IGFs by contractors. We based our determination on the following:

   •	 OA did not conduct a review to ensure language in awarded service 

      contracts did not include duties or responsibilities that are 

      consistent with IGFs. Not doing so resulted in several contracts

      having similar language that could indicate the performance of IGFs

      by contractors.



SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 14
                               REDACTED PUBLIC VERSION
   •	 OA did not perform reviews of service contract actions to assess

      whether the contracts included language that could be interpreted 

      to allow for contractors to perform IGFs. 

   •	 OA did not ensure language in the contracts was defined in 

      accordance with FAR requirements to avoid contracts allowing for

      contractor to perform IGFs. 


Because OA did not provide adequate oversight of these contracts, it could have
resulted in contractors performing IGFs. Further, we determined that OA did not
take adequate measures in developing contract language for the
           and       contracts to describe the contractors’ job duties and
responsibilities.

       Recommendation 4:

       The Office of Acquisitions should review all active service contracts and
       assess whether they include language that could reasonably be interpreted
       to allow for contractor performance of inherently governmental functions
       (IGF). Service contracts that are found to include IGF language should be
       modified to remove the language.

       Management Comments. OA concurred with this recommendation. See
       Appendix V for management’s full comments.

       OIG Analysis. We are pleased OA concurred with this recommendation.
       OIG considers this recommendation resolved. However, the
       recommendation will remain open until documentation is provided to OIG
       that supports it has been fully implemented.

       Recommendation 5:

       The Office of Acquisitions should implement SECR 10-24 dated November
       15, 2012, and its associated Operating Procedures to ensure language in
       service contracts conform to the Office of Management and Budget
       Publication, Office of Federal Procurement Policy Letter 11-01, Performance
       of Inherently Governmental and Critical Functions and the Federal
       Acquisition Regulation 7.503 requirements, to avoid contracts allowing for
       contractors performance of inherently governmental functions.

       Management Comments. OA concurred with this recommendation. See
       Appendix V for management’s full comments.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 15
                               REDACTED PUBLIC VERSION
       OIG Analysis. We are pleased OA concurred with this recommendation.
       OIG considers this recommendation resolved. However, the
       recommendation will remain open until documentation is provided to OIG
       that supports it has been fully implemented.


Finding 3: OA’s New Guidance Pertaining to
Managing and Administering Service Contracts
Should Be Improved in Some Areas
       OA’s newly issued guidance and operating procedures

       should to be revised relating to clearly prohibiting interviews

       of contractors, providing contracting personnel with

       specialized training related to PSCs and IGFs, and 

       strengthening pre-award and post-award monitoring

       procedures. 


In November 2012, OA issued SECR 10-24 and OP10-24, which consists of
comprehensive policy and guidance and includes detailed checklists and training
slides that covers contracting official’s management and administration of service
contracts. We found the policy contains gaps that should be addressed related to
clearly prohibiting interview contractor personnel, providing contracting personnel
with specialized training in relation to PSCs and IGFs, and strengthening its pre-
award and post-award monitoring procedures.

Review of SECR 10-24 and OP 10-24
Our assessment of SECR 10-24 and OP 10-24 found the guidance to be very
useful. It consists of specific guidance and requirements contracting personnel
need in managing and overseeing service contracts in areas such as employee-
employer relationships, PSCs, and IGFs. However, the guidance should be
strengthened in relation to FAR 37.104 requirements. OA’s guidance includes pre-
award procedures that are beneficial, such as the pre-award checklist SEC
personnel must now use to ensure compliance with FAR requirements related to
PSCs and IGFs. The OP 10-24, Desk Reference: Management and Administration
of Service Contracts, “Dos and Don’ts List” states the following:

        SEC employees shall not do the following:

       Make hiring decisions for contractors. Meetings with individual
       contractor employees or potential employees to verify the person’s
       competence for the contract task should generally occur only when

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 16
                               REDACTED PUBLIC VERSION
       the SEC staff considers such a verification meeting important to
       provide assurance that the individual meets contract requirements
       or for other appropriate reason. If a meeting with a proposed
       contractor employee to determine whether their qualifications and
       ability appear to meet the requirements of the contract statement of
       work occurs, participation of contractor management is advised.

We found this statement is vague and open to SEC staff’s interpretation. Meeting
with contractors to evaluate their qualifications is equivalent to conducting
interviews in some circumstances such as post-contract award. SEC personnel
frequently told us about “meet and greets,” which appear to be interviews. OA’s
policy should be clearer regarding when “meet and greets” are appropriate.

Training Related to PSCs and IGFs. Since 2010, as part of the SEC’s new
employee orientation, OA has provided new employees with an overview of
employees’ responsibilities related to contracting. However, we determined that OA
did not provide adequate training to contracting personnel related to PSCs and
IGFs. For example, OA’s Acquisition and Competition training at the SEC’s San
Francisco Regional Office in June 2012, only had 2 of 110 slides that covered
personal services contracts and none that were related to IGF. Also, on June 12,
2012, OA provided a 25-minute training session to attendees related to contracting
personnel regarding personal services, and in December 2012, OA provided a two-
hour training session to contracting personnel on SECR 10-24 and OP 10-24
requirements. Consequently, this training was not offered to SEC staff such as
project managers and branch chiefs who interact with and/or influence contractors
and their work, but do not have actual contract oversight responsibilities. While the
training OA has provided to SEC employees regarding their responsibilities related
to contracting has improved, it should be revised to cover areas such as post-award
monitoring procedures. Thus, we determined OA did not provide adequate training
to SEC personnel regarding employee-employer relationships, PSCs and IGFs.
Because OA did not develop policy and procedures or provide training to SEC
contracting personnel prior to 2012, related to PSCs and IGFs, its internal controls
over service contracts were lacking and need improvement.

Post-Award Monitoring. Our review of OP 10-24 found it also does not
adequately address post-award monitoring procedures. OA has not utilized post-
award monitoring controls which could be used to ensure contracts are not being
administered in ways that could evolve into a PSC or engage contractors in IGFs.
The OP indicates CORs and other government employees should “implement
management control measures to administer the terms of the contract.” However,
the OP does not specify what control measures should be, or how they should be
implemented. We believe the OP should clearly define post-award procedures, and
a checklist similar to OA’s pre-award checklist should be developed to use as a tool
to monitor the administration of service contracts on an ongoing basis.

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 17
                               REDACTED PUBLIC VERSION
Benchmarks with Other Federal Agencies
To gain an understanding of best practices for administering and managing service
contracts at other agencies, we reviewed the standard operating procedures (SOP)
from four federal agencies regarding PSCs and IGFs. We found these agencies
used both pre-award and post-award procedures to ensure contracts were not
issued as PSCs or IGFs. Specifically, we found that the agencies have:

   •	 SOPs for PSCs and IGFs that are based on the FAR requirements.
   •	 A PSC/IGF checklist is used that must be reviewed and approved 

      by the CO. 

   •	 Pre-award review procedures are used to provide guidelines to aid 

      in ensuring service contracts are not issued as PSCs/IGFs.

   •	 Finally, two agencies use post-award monitoring procedures that

      provide guidelines to ensure service contracts are not issued as

      PSCs/IGFs.


Pre-Award Procedures. Our review found that the four agencies use pre-award
procedures to ensure contracts are not issued as PSCs/IGFs. In reviewing one of
the agency’s policies and procedures, we found that the CO is required to review all
requirement packages for services from its program office. This is done to ensure
that a PSC is not created. Our review of the agency’s policies and procedures
showed they included the same elements found in the FAR to assess whether a
proposed service contract should be characterized as a PSC or IGF. We found one
of four agency’s policy determined that the “assessment should identify functions
that are closely associated with inherently governmental functions.’’ The policy
further stated that “If contractors have experience performing such work then
special monitoring should be implemented to guard against expansion into
inherently governmental functions.”

Additionally, two of the four agencies have pre-award procedures that must be done
before a service contact is issued. A pre-award assessment is done by the
program office to ensure the SOW does not include any PSC or IGF language
before the contract is awarded. When implementing the policy the agency’s
managers consider the following factors:

   •	 Nature of the work to be performed. IGFs may not be contracted.
   •	 Availability of existing federal employees with the knowledge, skills

      and experience to understand the work, manage the contracts and 

      assess results achieved.

   •	 Whether the agency can obtain highly specialized skills or historical

      knowledge (e.g., of plan practices) through civil service recruitment.

   •	 Relative cost of performance by contract or federal employees.

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 18
                               REDACTED PUBLIC VERSION
One agency stated ‘’All new requirements for services including expiring contracts
that will be re-competed must undergo an assessment to ensure that any proposed
contract award for services does not include any inherently governmental functions
or unauthorized personal services.”

Consequently, all four agencies use a checklist or similar-type document to
evaluate whether a contemplated contract complies with the FAR and attempt to
ensure that service contracts are not issued as PSCs/IGFs.

Post-Award Procedures. Further, we found that two agencies in our benchmark
sample used post-award procedures to aid in ensuring an employer-employee
relationship between the agency and contractor personnel did not exist. Also, to
preclude the creation of a prohibited employer-employee relationship between the
agency and contractor personnel and to preserve the independent status of
contractor personnel, one agency exercised the following precautions:

   •	 Agency employees cannot directly or indirectly supervise contractor

      personnel.

   •	 Contractor personnel workstations must be separate from agency

      employee workstations, to the maximum extent practicable.

   •	 Contractor personnel must wear badges when onsite at agency

      offices or facilities and display office signs that identify them as

      contractor personnel.

   •	 Contractor personnel cannot attend regular agency staff meetings.
   •	 Contractor personnel, in general, cannot participate in services that

      are provided for the benefit of agency employees (e.g., counseling

      and referral services, agency recreational activities, office picnics,

      and holiday parties). 


Other post-award procedures employed by the four agencies in our benchmark
included a continuous review of the functions contractors perform, in particular, the
way contractors conduct work that is associated with IGFs, such as awarding and
administering contracts and the direction and control of federal employees.

Survey for CORs and Program Managers
During September 2012, we surveyed SEC CORs and program managers
regarding the SEC’s practices in providing oversight of contractor personnel and
specialized training they have received to assist in performing their duties for
support services and consulting contracts. Approximately 47 percent of the CORs
and program managers, who received the survey, responded to it. The survey
revealed that improvements were needed to ensure CORs and program managers
have a better understanding of what constitutes a PSCs and IGFs. Overall, the
survey found the following:
SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 19
                               REDACTED PUBLIC VERSION
   •	 Twenty of 51 (39 percent) respondents stated they performed daily

      supervision of contractors. This is a red-flag for a possible 

      employer-employee relationship in violation of FAR 37.104.


   •	 Two of 53 (4 percent) respondents interviewed contractors before 

      they were hired to support contract work. This relates to an

      employer-employee relationship in violation of FAR 37.104. We

      believe this response is probably significantly understated because 

      discussions we had with individual contractors and SEC personnel

      stated that “meet and greets” were conducted by SEC personnel to 

      determine the suitability of contractors before they were hired. SEC

      personnel did not believe “meet and greets” were the same as

      interviews.


   •	 Nineteen of 55 (35 percent) respondents indicated that comparable 

      services were performed by former or SEC civil service staff. This

      indicates an area that should receive additional attention in contract

      creation and oversight to avoid a PSC.


   •	 Four of 49 (8 percent) respondents indicated they did not receive 

      any or timely training related to PSCs and IGFs. 


We determined further training is needed for SEC personnel who administer and
oversee service contracts.

Conclusion
OA’s newly issued guidance and operating procedures are comprehensive, but
need to be further strengthened to better ensure SEC personnel and other program
personnel who work with contractors, that are on a service contract, are trained and
given current guidance regarding their responsibilities to administer and manage
contractors and are cognizant of FAR as it pertains to employer-employee
relationships, PSCs and contractors conducting IGFs. Not having solid pre-award
and post-award monitoring procedures could result in FAR violations pertaining to
PSCs and IGFs.

   Recommendation 6:

   The Office of Acquisitions should revise SECR 10-24, Management and
   Administration of Service Contracts and Operating Procedures 10-24 to clearly
   prohibit interviewing contractor employees and require post-award reviews be
   done on service contracts using a checklist that covers common areas that

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 20
                               REDACTED PUBLIC VERSION
   should be avoided during contract administration and oversight of service
   contracts.

   Management Comments. OA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased OA concurred with this recommendation. OIG
   considers this recommendation resolved. However, the recommendation will
   remain open until documentation is provided to OIG that supports it has been
   fully implemented.

   Recommendation 7:

   The Office of Acquisitions should periodically provide training on avoiding
   actions that could be interpreted as supervision of contractor employees, on
   avoiding inappropriate employer-employee relationships between government
   employees and contractor personnel, and on preventing contractors from
   performing inherently governmental functions. This training should be provided
   to contracting personnel and other program personnel who work with contractors
   on service contracts.

   Management Comments. OA concurred with this recommendation. See
   Appendix V for management’s full comments.

   OIG Analysis. We are pleased OA concurred with this recommendation. OIG
   considers this recommendation resolved. However, the recommendation will
   remain open until documentation is provided to OIG that supports it has been
   fully implemented.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 21
                               REDACTED PUBLIC VERSION
                                                                               Appendix I


                                   Abbreviations

              Castro & Co            Castro & Company, LLC
              CNCS                   Corporation for National and
                                     Community Service
              CO                     Contracting Officer
              COR                    Contracting Officer’s Representative
              COSO                   Committee of Sponsoring Organizations
                                     of the Treadway Commission
              Enforcement            Division of Enforcement
              FAR                    Federal Acquisition Regulation
              FPDS                   Federal Procurement Data System
              IGF                    Inherently Governmental Function
              IT                     Information Technology
              OA                     Office of Acquisitions
              OHR                    Office of Human Resources
              OIT                    Office of Information Technology
              OFPP                   Office of Federal Procurement Policy
              OIG                    Office of Inspector General
              OMB                    Office of Management and Budget
              OP                     Operating Procedure
              POP                    Period of Performance
              PSC                    Personal Services Contract
              SEC or                 U.S. Securities and Exchange
              Commission             Commission
              SECR                   SEC Administrative Regulation
              SOP                    Standard Operating Procedure
              SOW                    Statement of Work
              TO                     Task Order




SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 22
                               REDACTED PUBLIC VERSION
                                                                               Appendix II

                         Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG redacted
(blacked out) potentially sensitive, proprietary information from the report.

As part of the OIG’s annual audit plan, Castro & Co conducted an audit of SEC’s
support service, expert and consulting service contracts.

Castro & Co conducted this performance audit in accordance with the generally
accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
W e believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Scope. Castro & Co conducted its fieldwork from July 2012 to January 2013 at the
SEC’s Headquarters site in Washington, D.C. The scope of our audit covered a
select number of support services, expert and consulting service contracts that
were executed by all SEC divisions/offices (e.g., headquarters, operations center
and the regional offices) during calendar years 2008 to 2011, and from January
2012 to September 2012.

Methodology. To accomplish the overall objective to determine whether OA
awarded support services, expert and consulting services contracts, and complied
with governing laws and regulations regarding PSCs and IGFs, Castro & Co
obtained, reviewed and analyzed support service, expert and consulting service
contracts to determine if indicators of PSCs or IGFs were present. In addition, we
conducted interviews with CO’s, contract specialists, CORs, and other personnel to
corroborate evidence we gathered during our contractor file review.

To accomplish the objective of determining whether OA developed appropriate
controls and has written policy that prevent contractors from performing PSCs and
IGFs, Castro & Co reviewed SEC’s regulations and policies and procedures
pertaining to contracting, relevant federal laws, regulations, and guidance. We also
reviewed reports OIG’s issued related to PSCs and IGFs. In addition, we reviewed
OA’s new Administration Regulation regarding service contracts to determine if the
policy would provide improved guidance on how contracts should be administered to
avoid PSCs or IGFs. In addition, we developed, administered, and analyzed the
results of a survey that was directed to SEC’s CORs, inspection and acceptance
officials and program managers to determine whether SEC’s practices in providing
supervision, control, and training to SEC staff were appropriate for those performing
oversight duties.
SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 23
                               REDACTED PUBLIC VERSION
                                                                               Appendix II

To accomplish the objective of identifying procedures OA has established and uses to
monitor and carry out the terms of contracts to ensure compliance with governing laws

and regulations and its internal policy, Castro & Co conducted interviews with select
OA personnel who were responsible for administering SEC’s contracts. Such
personnel included the COs/contract specialists and CORs. We also reviewed
training provided to SEC personnel related to service contracts to determine if
adequate coverage was provided related to PSCs and IGFs.

To accomplish the objective of assessing whether OA developed controls to ensure
the SEC is charged appropriately for the services that are rendered under the terms of
the contracts, Castro & Co conducted interviews with OA personnel regarding
contract administration, including the review of invoices. Additionally, Castro & Co
obtained, reviewed and analyzed invoices to ensure charges were appropriate
when compared to contract terms and were supported by appropriate
documentation.

To accomplish the objective of identifying best practices and possible cost savings or
funds put to better use and provide recommendations to improve SEC contracting
practices, Castro & Co reviewed policies and procedures from other federal agencies
to benchmark best practices regarding contract administration, including the handling
of PSCs and IGFs. We also reviewed reports issued by the Government
Accountability Office, as well as other federal agencies related to PSCs and IGFs to
determine whether any issues in the reports were applicable to the scope of our
audit. Our review of contractor invoices found that OA has established controls to
ensure that the SEC is appropriately charged for services received. Based on our
discussions with OA personnel and analysis of invoices tested, the SEC controls
over contractor invoicing appear reasonable. Our audit found that CORs reviewed
the contractor’s invoices when they were received. This review included examining
supporting documentation, such as timesheets to determine whether charges were
appropriate. The CORs asserted they ensured all pertinent information
corresponded with the terms of the contracts. In addition, we tested 93 invoices
and its supporting documentation and verified the SEC was appropriately charged
for the contractor’s services. We traced the fees that were paid to the amounts
allowed per the terms of the contract, for the type of applicable work, and found no
discrepancies.

In addition, our benchmark procedures included reviewing standard operating
policies and procedures from other federal agencies related to PSCs and IGFs to
gain an understanding of best practices utilized at those agencies. We did not
determine any possible cost savings or funds that were put to better use.



SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 24
                               REDACTED PUBLIC VERSION
                                                                               Appendix II
Internal Controls. The Internal Control—Integrated Framework, published by the
Committee of Sponsoring Organizations of the Treadway Commission (COSO),
provides a framework for organizations to design, implement, and evaluate controls

that facilitate compliance with federal laws, regulations, and program compliance
requirements. We based our assessment of OA’s internal controls that were significant
to the audit objectives on the COSO framework, including control environment, risk
assessment, control activities, information and communication, and monitoring.

Use of Computer-Processed Data. We did not assess the reliability of this
function because it did not pertain to our audit objectives. For our contract testing,
we obtained a listing of support services, expert witness, and consulting contracts
from FPDS. The original file contained all contract actions (initiations,
modifications, deobligations, etc.) from January 1, 2008 to March 31, 2012. After
talking to OIG we determined the file contained actions for contracts awarded prior
to fiscal year 2008. OIG reviewed the original file and removed the actions for all
contracts prior to 2008. The OIG determined the date awarded based on the
assigned contract number. For those contracts that did not follow the standard
naming convention, the date was verified in FPDS.

Random Sampling. Castro & Co employed a methodology of random sample
selection for our sample universe. Sample sizes were determined by evaluating the
population of contracts to test and by giving consideration to the significance of the
control, inherent risk, and professional judgment.

We obtained a population of 1,442 individual contracts and excluded all contracts
below the micro-purchase threshold of $3,000, as well as those contracts which
only included deobligations. This resulted in a final population of 1,288 contracts.
We determined an appropriate sample size was 10 percent of the overall
population, or 129 contracts. Between November 2012 and December 2012, OIG
requested we review five additional contracts. Therefore, our total sample size
amounted to 134 contracts.

For the original 129 contracts, we divided the contracts into two groups, based on
the dollar value of each contract: Group 1 contained contracts valued from $3,000
to $25,000, and Group 2 contained contracts valued over $25,000. We selected 10
items from Group 1 using random sample selection. For Group 2, we used the
Stratified Random sample selection and grouped the contracts into strata based on
dollar value. We weighted each stratum based on the “percent of records,” or the
number of contracts within each stratum as compared to the number of contracts
within the overall population. We then multiplied the percentage of records to the
target, total sample items and to determine the total number of contracts to be
tested within the strata.


SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 25
                               REDACTED PUBLIC VERSION
                                                                               Appendix II
For invoices testing, we obtained a list of payment vouchers associated with each
contract previously selected for testing. This resulted in 930 payment vouchers
within the population. We determined 10 percent of the population was a
reasonable sample size. We used the IDEA’s random sample selector which
identified 93 payment vouchers that should be tested.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 26
                               REDACTED PUBLIC VERSION
                                                                               Appendix III


                                         Criteria

FAR 37.104(d). Consist of the following six questions that should be raised to
determine whether an employer-employee relationship has been created, and
therefore a personal services contract may exist.

   1) Is the performance on site?

   2) Are the principal tools and equipment furnished by the government?

   3) Are the services being performed by the contractor directly

      applied to the integral effort of the agency or an organizational
      subpart in furtherance of an assigned function or mission?
   4) Are comparable services being performed in the same or similar
      agencies by civil service personnel?
   5) Will the need for this type of service be expected beyond one
      year?
   6) Does the nature of the service being provided reasonably
      require government direction or supervision of contractor
      employee in order to protect the government’s interest, retain
      control of the function involved, or retain personal responsibility
      for the function by a duly authorized Federal officer or
      employee?

FAR 7.503 (a). States that “contracts shall not be used for the performance of
inherently governmental functions.’’ Although FAR 7.503 does not provide an
exact definition of IGFs, it provides a list of duties which may be considered as
such. The list, while not all inclusive, includes the following:

     •	 The determination of agency policy, such as determining the
        content and application of regulations, among other things.
     •	 The determination of Federal program priorities for budget

          requests.

     •	 The direction and control of Federal employees.
     •	 The selection or non-selection of individuals for Federal

        Government employment, including the interviewing of

        individuals for employment.

     •	 The approval of position descriptions and performance 

        standards for Federal employees.

     •	 In Federal procurement activities with respect to prime 

          contracts—

             1) Determining what supplies or services are to be acquired
                by the Government (although an agency may give

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 27
                               REDACTED PUBLIC VERSION
                                                                               Appendix III


               contractors authority to acquire supplies at prices within
               specified ranges and subject to other reasonable
               conditions deemed appropriate by the agency);
            2) Approving any contractual documents, to include
               documents defining requirements, incentive plans, and
               evaluation criteria;
            3) Awarding contracts;
            4) Administering contracts (including ordering changes in
               contract performance or contract quantities, taking action
               based on evaluations of contractor performance, and
               accepting or rejecting contractor products or services);
            5) Terminating contracts;
     •   The determination of budget policy, guidance, and strategy.

31 U.S.C. 1342. States that, “An officer or employee of the United States
Government or of the District of Columbia government may not accept voluntary
services for either government or employ personal services exceeding that
authorized by law except for emergencies involving the safety of human life or the
protection of property.”

FAR Subpart 37.203. Consist of the five prohibited uses for advisory and
assistance service contracts.

Comptroller General Decision Encore Management, Inc., B-278903.2 (Comp.
Gen. Feb. 12, 1999). On February 12, 1999, the Comptroller General of the United
States determined that the Corporation for National and Community Service
(CNCS) administered a contract for clerical and administrative support as a
personal services contract and CNCS’s cancellation of a request for proposals for a
replacement contract was reasonable.

Comptroller General Decision Kelly Services, B-186700 (Comp. Gen. Jan. 19,
1977). The six elements relate principally to the third statutory criterion concerning
supervision of the contractor’s employee by a federal officer or employee. That is,
the proscribed supervision is frequently evidenced by these elements. The
absence of any one or a number of them, however, would not mean that
supervision is not permitted by the contract, or present in the actual work
performance, but only that there is less likelihood of its existence.

Office of Federal Procurement Policy Letter 11-01, Performance of Inherently
Governmental and Critical Functions, September 12, 2011. The purpose of the
policy letter is to provide executive departments and agencies guidance on
managing the performance of inherently governmental and critical functions.

SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 28
                               REDACTED PUBLIC VERSION
                                                                               Appendix III


SECR 10-24 and SEC OP 10-24, Management and Administration of Service
Contracts, November 15, 2012. This SECR implements the guidance noted in the
OFPP Letter 11-01, Performance of Inherently Governmental and Critical
Functions. This SECR and the accompanying OP, provides procedures to avoid
entering into contracts for IGFs and personal services. In addition, these
documents present procedures to be utilized for acquiring and administering
contracts for functions closely associated with IGFs and critical functions.

Committee of Sponsoring Organizations of the Treadway Commission –
Integrated Framework, 1992. The framework provides a principles-based
guidance for designing and implementing effective internal controls.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts   March 29, 2013
Report No. 513
                                           Page 29
                               REDACTED PUBLIC VERSION
                                                                               Appendix IV


                        List of Recommendations

Recommendation 1:

The Office of Acquisitions should coordinate with the Office of the General
Counsel to determine if the                        Contract No. SECHQ-
                       Contract, No. SECHQ­            ; and         Contract No.
SECHQ-                      were personal services contracts prohibited by
Federal Acquisition Regulation (FAR) 37.104 and take any action needed to
ensure compliance with the FAR’s provision for the contracts that remain open.

Recommendation 2:

The Office of Acquisitions should ensure contracting personnel such as
contracting officers and contract specialists review service contracts prior to
award and verify they do not contain language that could be construed as an
employer-employee relationship or personal services contract.

Recommendation 3:

The Office of Acquisitions should ensure service contracts have a designated
contractor point of contact or project manager to oversee its personnel’s work
assignments, work schedules, timecard approval, leave requests, and other
administrative requirements.

Recommendation 4:

The Office of Acquisitions should review all active service contracts and assess
whether they include language that could reasonably be interpreted to allow for
contractor performance of inherently governmental functions (IGF). Service
contracts that are found to include IGF language should be modified to remove
the language.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts     March 29, 2013
Report No. 513
                                          Page 30
                             REDACTED PUBLIC VERSION
                                                                               Appendix IV


Recommendation 5:

The Office of Acquisitions should implement SECR 10-24 dated November 15,
2012, and its associated Operating Procedures to ensure language in service
contracts conform to the Office of Management and Budget Publication, Office of
Federal Procurement Policy Letter 11-01, Performance of Inherently
Governmental and Critical Functions and the Federal Acquisition Regulation
7.503 requirements, to avoid contracts allowing for contractors performance of
inherently governmental functions.

Recommendation 6:

The Office of Acquisitions should revise SECR 10-24, Management and
Administration of Service Contracts and Operating Procedures 10-24 to clearly
prohibit interviewing contractor employees and require post-award reviews be
done on service contracts using a checklist that covers common areas that
should be avoided during contract administration and oversight of service
contracts.

Recommendation 7:

The Office of Acquisitions should periodically provide training on avoiding actions
that could be interpreted as supervision of contractor employees, on avoiding
inappropriate employer-employee relationships between government employees
and contractor personnel, and on preventing contractors from performing
inherently governmental functions. This training should be provided to
contracting personnel and other program personnel who work with contractors on
service contracts.




SEC’s Controls over Support Service, Expert and Consulting Service Contracts     March 29, 2013
Report No. 513
                                          Page 31
                             REDACTED PUBLIC VERSION
                                                                                      Appendix V



                           Management Comments




                                         Mk::.MORANI)UM

                                           March 26, 2013



 To: Jacqueline Wilson, Assistant inspector· Cicueral for AuditK

 From: Vauo:;e Cathell, Director, Office of Acquisitions()~

 Subject: Response to SEC lG's Draft Audit 513, Audil ofSEC'.v Controls Over Support.Service,
 Expert and Consulting Service Contracts



 Thank you for the; opportunity to review and comtnent on the n;.-cornmendations in draft Audit
 Report, Audit ofSEC's Controls Over Support Service, r:Xpert and Commlting Service Contracts
 dated March 21, 2013. The Office of Acquisitions (OA) appreciates the recommendations
 designed to strengthen OA's controls over service contracts. We are pleased the OIG tound that
 controls to ensure that the SEC is being properly charged for services appear to be reasonable.

 (.)A is eonnnittcd to assuring proper oversight and management of servic<.l contracts, and I
 wclcotn<J your suggestions on irnprovcments in our policies and processes. SEC Regulation I 0-
 24, Mana,;etnent and Administration qf.<.,'ervic<! C'ontract was issued in November of 20 12. after
 !h<: period covered by this audit. OA will review the regulation and its associated operating
 proccdu1·cs, trtlining, and guides, and adjust thcrn as appropriate to ineorponrtc rccon>mcndntions.

Recon1.mendation 1:
The Office of ''"''"Hu""

                                                                                      personal
services                                 Acquisition Regulation (l~AR) 37.104 and take any
acti<)n needed to ensure eornplianee with the .FAR's provision for the contr.aets that remain open.

 RcSIJ-t..'>ll.SC':
OA. concurs with this recommendation. OA will submit the referenced contracts to OGC for
review, and will take appropriate action on the active contract to assure it complies with FAR
3 7. 1 04 pro visions.

 Recommendation 2:
 The Office of Acquisitions should ensure C<lntracting personnel such as contmcting officers and
 contTact specialists review service contracts prior to award and verifY they do not contain
 language that could be construed a.'i an employer-employee relationship or personal services
 contract.<;.




SEC's Controls over Support Service, Expert and Consulting Service Contract              March 29, 2013
Report No. 513
                                               Page 32

                                REDACTED PUBLIC VERSION
                                                                                      Appendix V




Subject: Response to SEC IG's Draft Audit 513, Audit of SEC's Controls Over Support Service,
Expert and Consulting Service Contracts


Response:
OA etJncurs with this recommendation. OA will amend SEC's Operating Procedure 10-24
(November 21, 2012) to require clearly that contracting personnel review service contracts to
verify they do not contain language that could be construed a.s an employer-employee
relationship or personal services contracts.

Recommendation 3;
The Office of Acquisitions should <-'I!sure service contracts have a designated contractor point of
contact or project manager to oversee it.<> personnel's work assignments, work schedules,
timecard approval, leave requests, and other administrative requirements.

Response:
OA concurs with this recommendation. OA will institute controls to assure that Contract
Specialists and Contracting Officers include a requirement in service contracts to have a
designated contractor point of contact or project manager to ensure that contractor personnel arc
under their employer's administrative control and supervision.

Recommendation 4:
The Office of Acquisitions should review all active service contracts and assess whether they
include language that could reasonably be interpreted to allow for contractor performance of
inherently governmental functions (IGF). Service contracts that are found to include IGF
language should be modified to remove the language.

Response:
OA concurs with this recommendation. OA will conduct a review and assess all active service
contracts that have a statement of work to determine if the contract language could reasonably be
interpreted to allow for contractor pedonnance of inherently governmental functions. The
Contracting Officer, who may also seek review by the Office of General Counsel, will modify
any such language tound.

Recommendation 5:
The Office of Acquisitions should implement SECR 10-24 dated November 15,2012, and its
associated Operating Procedures to ensure language in service contracts conform to the Oflice of
Management and Budget Publication, Oftlce of Federal Procurement Policy Lener I 1-0 l,
Performance cifInherently Governmental and Critlcal Functions and the Federal Acquisition
Regulation 7.503 requirements, to avoid contracts allowing for contractors performance of
inherently governmental functions.




                                                 2




SEC's Controls over Support Service, Expert and Consulting Service Contracts            March 29, 2013
Report No. 513
                                            Page 33

                               REDACTED PUBLIC VERSION
                                                                                   AppendixV




Subject: Response to SEC IG's Drafl: Audit 513, Audit ofSEC's Controls Over Support Service,
l::Xpert ond Consulting Service Contracts

Response:
OA concurs witb this recommendation. Since November 2012, OA has been implementing
SECR 10-24 and tbe associated Operating Procedures for all new service contract awards to
ensure language in service contracts conforms to OFPP Policy Letter l 1-01 . OA has provided a
number of training sessions to procurement personnel and new supervisors, and recently made
the training available online tor all SEC personnel. Additional training and communications
SEC wide will be conducted. OA will implement oversight controls to assure that SECR I 0-24
is being followed. A Reference Deskvide Guide has also been posted as a handy reference point
for use by SEC personnel when dealing witb service contractors.

Recommendation 6:
The Office of Acquisitions should revise SECR 10-24, 1'vfanagemenl and Administration t;if'
Service Contracts and Operating Procedures 10-24 to clearly prohibit interviewing contractor
en1ployees and require post-award reviews be done on service contracts using a checklist tbat
covers common areas that should be avoided during contract administration and oversight of
service contracts.

Response:
OA concurs witl1 this recommendation. OA will revise SECR 1 0-24 and the associated
Operating Procedures to clearly prohibit interviewing contractor employees. This prohibition
will continue to be emphasized during training. OA will develop a checklist for post-award
reviews for service contracts .

.Reco:rnmend1ltion 7:
The Office of Acquisitions should periodically provide training on avoiding actions that could be
 interpreted as supervision of contractor employees, on avoiding inappropriate employer-
employee relationships between government employees and contractor personnel, and on
 preventing contractors from performing inherently governmental functions. This training should
 be provided to contracting personnel and other program personnel who work witb contractors on
 service contntcts.

Response:
OA concurs with this n:.-commcndation. OA has provided trdining and will continue to provide
periodic training to SEC staff involved in service contracts on avoiding actions that could be
interpreted as supervision of contractor employees, on avoiding inappropriate employer-
employee relationships and on preventing contractors from performing inherently govemmental
functions. OA will continually review training and make noted improvements.


Cc: Darlene Pryor; Russ Moore


                                                3




SEC's Controls over Support Service, Expert and Consulting Service Contracts         March 29, 2013
Report No. 513
                                           Page 34

                              REDACTED PUBLIC VERSION
                     Audit Requests and Ideas




The Office of Inspector General welcomes your input. If you would like to request
an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General for Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov



                 SEC OIG Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:
      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
